TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   The Internal Revenue Service Provides
                  Helpful and Accurate Tax Law Assistance,
                   but Taxpayers Experience Lengthy Wait
                        Times to Speak With Assistors



                                           July 22, 2011

                              Reference Number: 2011-40-070




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    HIGHLIGHTS


THE INTERNAL REVENUE SERVICE                           review of a sample of contact recordings of tax
PROVIDES HELPFUL AND ACCURATE                          return preparation assistance provided at
TAX LAW ASSISTANCE, BUT                                Taxpayer Assistance Centers nationwide
TAXPAYERS EXPERIENCE LENGTHY                           showed that assistors accurately prepared tax
                                                       returns.
WAIT TIMES TO SPEAK WITH
ASSISTORS                                              However, taxpayers are experiencing long wait
                                                       times at Taxpayer Assistance Centers and on
                                                       the telephones. At Taxpayer Assistance
Highlights                                             Centers, our auditors waited an average of
                                                       one hour to receive assistance and in some
Final Report issued on July 22, 2011                   cases were turned away and told to return
                                                       another day to obtain services. In addition,
Highlights of Reference Number: 2011-40-070            Taxpayer Assistance Centers do not always
to the Internal Revenue Service Commissioner           allow qualified taxpayers to schedule
for the Wage and Investment Division.                  appointments and do not consistently apply new
                                                       taxpayer screening guidelines and procedures.
IMPACT ON TAXPAYERS
                                                       WHAT TIGTA RECOMMENDED
An important part of the Internal Revenue
Service’s (IRS) mission is to help taxpayers           TIGTA recommended that the Commissioner,
understand and meet their tax obligations. The         Wage and Investment Division, reinforce
IRS offers taxpayers several service options to        existing controls to ensure Taxpayer Assistance
obtain tax assistance, including face-to-face; the     Center managers appropriately schedule
IRS’s public Internet site, IRS.gov; or telephone.     appointments requested by taxpayers who have
Auditors posed as taxpayers and tested a               an ongoing, complex tax account problem or a
variety of these service options to obtain             special need, such as a disability. The IRS
answers to tax law questions, assess the ease          should also add information on IRS.gov and
of obtaining answers and the accuracy of the           Taxpayer Assistance Centers’ telephone
answers provided, and assess the quality of            recordings to inform taxpayers they may be
services received from a taxpayer’s point of           asked to provide identification and Social
view. Providing quality customer service is the        Security Numbers to receive assistance.
first step toward assisting taxpayers to               In their response to the report, IRS officials
understand and meet their tax responsibilities.        agreed with both recommendations.
WHY TIGTA DID THE AUDIT                                Management plans to issue additional
                                                       instructions to Taxpayer Assistance Center
This audit was initiated to determine the quality      managers relating to scheduling appointments.
of customer service the IRS provides taxpayers         The IRS also plans to update IRS.gov and
who seek assistance with understanding the tax         Taxpayer Assistance Centers’ telephone
laws and preparing their tax returns. This is a        recordings to include a statement advising
follow-up review to a prior TIGTA report.              taxpayers they may be asked to provide valid
                                                       photo identification and a Taxpayer Identification
WHAT TIGTA FOUND                                       Number, such as a Social Security Number, to
The overall experiences of auditors who posed          receive services.
as taxpayers to obtain answers to tax law
questions from the Toll-Free telephone
assistance lines, IRS.gov, and Taxpayer
Assistance Centers were generally positive.
Auditors received accurate responses to all tax
law questions. Auditors were also able to
accurately prepare tax returns using the various
IRS sources, including the Free File Program. A
                                               DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                July 22, 2011


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


 FROM:                        Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – The Internal Revenue Service Provides Helpful
                              and Accurate Tax Law Assistance, but Taxpayers Experience Lengthy
                              Wait Times to Speak With Assistors (Audit # 201140008)

 This report presents the results of our review to determine the quality of customer service that the
 Internal Revenue Service (IRS) provides taxpayers who seek assistance when filing their tax
 returns. This included assistance at the local offices called Taxpayer Assistance Centers, through
 toll-free telephone lines, on the IRS public Internet site (IRS.gov), through social media, and
 with IRS publications and forms. This was a follow-up review to a prior Treasury Inspector
 General for Tax Administration report.1 This audit is included in our Fiscal Year 2011 Annual
 Audit Plan and addresses the major management challenge of Providing Quality Taxpayer
 Service Operations.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (202) 622-5916.




 1
  The Internal Revenue Service Provides Helpful Tax Law Assistance but Still Has Problems With Tax Return
 Preparation Assistance (Reference Number 2007-40-164, dated August 24, 2007).
                              The Internal Revenue Service Provides Helpful and
                                 Accurate Tax Law Assistance, but Taxpayers
                            Experience Lengthy Wait Times to Speak With Assistors




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 6
          Self-Assistance Options Provided the Best Experiences
          When Seeking Tax Law Assistance .............................................................. Page 6
                    Recommendations 1 and 2: .............................................. Page 17

          Experiences Were Positive When Tax Return Preparation
          Assistance Was Used .................................................................................... Page 17

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 22
          Appendix II – Major Contributors to This Report ........................................ Page 25
          Appendix III – Report Distribution List ....................................................... Page 26
          Appendix IV – Taxpayer Assistance Centers Visited During
          the 2011 Filing Season .................................................................................. Page 27
          Appendix V – Management’s Response to the Draft Report ....................... Page 28
                        The Internal Revenue Service Provides Helpful and
                           Accurate Tax Law Assistance, but Taxpayers
                      Experience Lengthy Wait Times to Speak With Assistors




                                   Abbreviations

e-file(d); e-filing         Electronically file(d); electronic filing
IRS                         Internal Revenue Service
TIGTA                       Treasury Inspector General for Tax Administration
                          The Internal Revenue Service Provides Helpful and
                             Accurate Tax Law Assistance, but Taxpayers
                        Experience Lengthy Wait Times to Speak With Assistors




                                            Background

Providing quality customer service to taxpayers is the Internal Revenue Service’s (IRS) first step
toward achieving taxpayer compliance. During the 2010 Filing Season,1 more than 60 million
taxpayers prepared their own tax returns without the assistance of a paid preparer. The IRS
estimated that it took individual taxpayers from 7 hours to prepare the simplest Tax Year 2010
returns to more than 23 hours2 to complete a more complex tax return with schedules.
                                        Federal tax law is complex. Although average individual
                                        taxpayers file simple tax returns and receive refunds, many of
                                        their tax problems result from misunderstanding the tax law
                                        and their tax obligations. Ensuring taxpayers understand and
                                        comply with applicable tax laws is part of the IRS’s mission.
                                  Taxpayers have different preferences and behaviors that affect
                                  their service needs. In addition, their education levels,
                                  incomes, and physical abilities play key roles in determining
                                  what type of service best meets their needs. The IRS’s
challenge and goal is to meet taxpayer needs and determine how to provide the best services with
its limited resources.
The IRS offers individual taxpayers several prefiling service options, including paper and online
tax forms and publications, Taxpayer Assistance Centers (walk-in offices), the Toll-Free
Telephone Assistance Line, the Automated TeleTax Telephone Line (hereafter referred to as the
TeleTax Line), and IRS.gov (the IRS public web site). These options provide both assisted and
self-help service options. In addition, the IRS offers filing assistance through its Volunteer and
Free File Programs. The Volunteer Programs provide no-cost Federal tax return preparation and
electronic filing (e-filing) to underserved segments of individual taxpayers, including low- to
moderate-income, elderly, disabled, and limited-English-proficient taxpayers. The Free File
Program offers free, online tax preparation and e-filing through commercial tax return
preparation companies accessed via IRS.gov. Social media3 platforms provide taxpayers with
the latest information on tax changes, initiatives, products, and services.
Figure 1 provides information regarding each of the customer service options provided by the
IRS.


1
  The filing season is the period from January to April 15 when most individual taxpayers file their tax returns.
2
  Included in the estimate are the U.S. Individual Income Tax Return (Form 1040), its schedules, and accompanying
forms.
3
  Social media is the use of web-based and mobile technologies to turn communication into interactive dialogue.
                                                                                                         Page 1
                           The Internal Revenue Service Provides Helpful and
                              Accurate Tax Law Assistance, but Taxpayers
                         Experience Lengthy Wait Times to Speak With Assistors



        Figure 1: Customer Service Options Available to Individual Taxpayers
Automated Telephone Self-Assistance                         Automated telephone self-assistance allows
                                                            taxpayers to call the IRS to obtain tax information
During the 2011 Filing Season, more than                    without having to wait to speak to an assistor.
6.2 million taxpayers called automated toll-free            Taxpayers may call:
telephone lines to receive assistance with tax
matters.                                                     •    1-800-829-4477 (TeleTax) – To hear
                                                                  prerecorded messages covering various tax
                                                                  topics or to check on the status of their refund.
                                                                  There is a separate dedicated line for refund
                                                                  inquiries (1-800-829-1954).
                                                             •    1-866-704-7388 (Electronic Filing Personal
                                                                  Identification Number Help) – To obtain a
                                                                  Personal Identification Number to allow
                                                                  taxpayers to electronically file their tax returns.
                                                             •    1-800-908-9946 – To use a self-assistance
                                                                  application to order transcripts of their tax
                                                                  returns.

Forms, Instructions, and Publications                       The IRS provides taxpayers with many forms,
                                                            instructions, and publications to assist in
During the 2011 Filing Season, taxpayers                    completing their tax returns. Taxpayers can obtain
downloaded 96.6 million documents from IRS.gov,             these documents by ordering them via toll-free
including forms, instructions, and publications, and        telephone lines, downloading them from IRS.gov,
ordered 10.9 million documents through the                  or visiting a Taxpayer Assistance Center.
toll-free telephone lines, including forms,
instructions, and publications.

Free File Program                                           The Free File Program is a free Federal tax
                                                            preparation and e-filing program for eligible
During the 2011 Filing Season, 3 million taxpayers          taxpayers developed through a partnership
used the Free File Program to prepare their                 between the IRS and private-sector tax software
Federal tax returns.                                        companies. The Free File Program allows
                                                            taxpayers with an Adjusted Gross Income4 of
                                                            $58,000 or less to e-file their tax returns for free.

IRS.gov                                                     IRS.gov contains thousands of webpages on which
                                                            taxpayers can, among other things, find information
During the 2011 Filing Season, the IRS reported             to answer their tax law questions; file tax returns;
more than 188.9 million visits to IRS.gov.                  and obtain forms, instructions, and publications.




4
  Adjusted Gross Income is the total of a taxpayer’s taxable income sources (e.g., wages, salaries, tips, taxable
interest, dividends) minus specific deductions and expenses (e.g., educator expenses, the Individual Retirement
Arrangement deduction, student loan interest deductions). A taxpayer’s standard or itemized deduction is not
deducted from Adjusted Gross Income.
                                                                                                              Page 2
                         The Internal Revenue Service Provides Helpful and
                            Accurate Tax Law Assistance, but Taxpayers
                       Experience Lengthy Wait Times to Speak With Assistors



Social Media                                            The IRS uses new social media platforms and tools
                                                        to share the latest information on tax changes,
During the 2011 Filing Season, thousands of             initiatives, products, and services through iTunes,
taxpayers have used one of the IRS's social media       Podcasts, YouTube, Twitter, and a Smartphone
tools.                                                  application (app).

Taxpayer Assistance Centers                             There are 401 Taxpayer Assistance Centers for
                                                        taxpayers who prefer face-to-face assistance.
During the 2011 Filing Season, Taxpayer                 Taxpayers can obtain assistance, for example, with
Assistance Centers served more than 2.8 million         resolving tax problems, learning how the tax law
taxpayers.                                              applies to their individual tax situations, preparing
                                                        their tax returns, or making payments on tax
                                                        accounts. However, tax law and tax return
                                                        preparation assistance is limited to less complex
                                                        tax issues. Taxpayer Assistance Centers are
                                                        generally open Monday through Friday from
                                                        8:30 a.m. to 4:30 p.m. local time.

Toll-Free Telephone Assistance Line                     The Toll-Free Telephone Assistance Line assists
(1-800-829-1040)                                        taxpayers in understanding tax laws and meeting
                                                        tax obligations. Live telephone assistance is
During the 2011 Filing Season, assistors answered       offered Monday through Friday, 7:00 a.m. to
more than 5.7 million calls to the Toll-Free            10:00 p.m. local time (Alaska and Hawaii follow
Telephone Assistance Line.                              Pacific Time).

Volunteer Programs                                      The IRS sponsors volunteer programs, such as the
                                                        Volunteer Income Tax Assistance and the Tax
During the 2011 Filing Season, more than                Counseling for the Elderly Programs, to assist
2.9 million taxpayers visited volunteer sites to have   taxpayers in preparing tax returns. The Volunteer
their tax returns prepared.                             Income Tax Assistance Program offers free tax
                                                        help for low- to moderate-income (generally,
                                                        $49,000 and below) individuals who cannot prepare
                                                        their own tax returns. The Tax Counseling for the
                                                        Elderly Program offers free tax assistance to
                                                        people aged 60 or older. For both programs,
                                                        certified volunteers sponsored by various
                                                        organizations receive training to help prepare basic
                                                        tax returns.

Sources: IRS Product Line Detail Reports and IRS Filing Season Reports.

The IRS’s goal is to meet taxpayer needs and determine how to provide the best services with its
limited resources. The Fiscal Year 2011 budget for Pre-filing Taxpayer Assistance and
Education is $694 million, or 5 percent of the $12.9 billion total budget. The IRS recognizes that
helping taxpayers understand their tax obligations under the tax law is critical to improving



                                                                                                     Page 3
                         The Internal Revenue Service Provides Helpful and
                            Accurate Tax Law Assistance, but Taxpayers
                       Experience Lengthy Wait Times to Speak With Assistors



compliance and addressing the Tax Gap5 and is committed to providing a balanced program of
assisting taxpayers to understand the tax law and pay the proper amount of tax.

The IRS addressed all of the Treasury Inspector General for Tax Administration’s
recommendations from a prior report
This is the Treasury Inspector General for Tax Administration’s (TIGTA) second review to
assess the taxpayer’s experience when filing Federal tax returns.6 The IRS implemented all of
the following corrective actions in response to recommendations in the prior report.
    •   IRS.gov now includes the types of questions Taxpayer Assistance Center assistors are
        authorized to answer and prominently displays a link to the list of Centers when
        taxpayers search for Center locations.
    •   The IRS ensures taxpayers know the scope of tax return preparation services offered in
        Taxpayer Assistance Centers and what is required of taxpayers to schedule appointments
        and/or to have tax returns prepared.
    •   The IRS piloted an appointment process to alleviate taxpayer burden, i.e., having to
        return to the Taxpayer Assistance Centers multiple times to schedule appointments.

Auditors used various techniques to gauge the taxpayer experience with the IRS during the
2011 Filing Season
TIGTA auditors created five tax law questions relating to typical tax law issues and five tax
return scenarios based on fictional taxpayers with typical tax issues. Each tax return scenario
had one or more unresolved tax law issues.
To evaluate taxpayers’ experiences with pre-filing assistance, auditors posed as taxpayers and
anonymously visited Taxpayer Assistance Centers,7 called the Toll-Free Telephone Assistance
Line and the TeleTax Line, and accessed IRS.gov to obtain answers to questions about tax law
issues. The auditors attempted to ask or research 65 tax law questions through these four
customer service options.
To evaluate taxpayers’ experiences when obtaining tax return preparation assistance, auditors
used the IRS Free File Program available through IRS.gov and prepared 20 tax returns—15 tax
returns using 3 different Free File Program software providers and 5 tax returns using IRS Free
File Fillable Forms. Auditors also manually prepared 10 tax returns using only IRS forms,
instructions, and publications downloaded from IRS.gov—5 using paper and pencil and 5 using
online versions of the paper forms available on IRS.gov. All the tax returns were prepared using

5
  The difference between taxes legally owed and taxes paid on time.
6
  The Internal Revenue Service Provides Helpful Tax Law Assistance but Still Has Problems With Tax Return
Preparation Assistance (Reference Number 2007-40-164, dated August 24, 2007).
7
  See Appendix IV for specific cities and States visited during this audit.
                                                                                                        Page 4
                           The Internal Revenue Service Provides Helpful and
                              Accurate Tax Law Assistance, but Taxpayers
                         Experience Lengthy Wait Times to Speak With Assistors



the five tax return scenarios. In addition, auditors listened to 20 judgmentally selected
recordings8 of tax return preparation assistance at Taxpayer Assistance Centers nationwide.
Auditors did not visit Volunteer Program sites during the review because the TIGTA had
conducted a separate audit to review these Volunteer Program sites.9
This review was performed at the Customer Account Services function and the Customer
Assistance, Relationships, and Education function headquarter offices in Atlanta, Georgia, and
the Communications and Liaison function in Washington, D.C., during the period
December 2010 through April 2011. From November 2010 through February 2011, auditors
posed as taxpayers and made visits to 26 Taxpayer Assistance Centers. Appendix IV provides a
map of the cities visited for Taxpayer Assistance Center visitations. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




8
  Contact Recordings capture the audio portion and screen activity during assistor/taxpayer interactions for quality
review. Quality reviewers listen to a statistical sample of recordings, the results of which are used to measure
customer satisfaction and employee performance.
9
  Volunteer Program – 2011 Filing Season, Audit # 201140006, draft report issued in July 2011.
                                                                                                              Page 5
                        The Internal Revenue Service Provides Helpful and
                           Accurate Tax Law Assistance, but Taxpayers
                      Experience Lengthy Wait Times to Speak With Assistors




                                    Results of Review

Self-Assistance Options Provided the Best Experiences When
Seeking Tax Law Assistance
Using the Toll-Free Telephone Assistance Line, Taxpayer Assistance Centers, TeleTax Line, and
IRS.gov, auditors were able to find answers to tax law questions and obtained correct answers
for all questions asked. Figure 2 presents results of the responses to the auditors’ tax law
questions.
          Figure 2: Results of Responses to Auditors’ Tax Law Questions

                                           Assisted Options                 Self-Help Options
                                    Taxpayer           Toll-Free
                                   Assistance         Telephone            TeleTax
                                     Centers        Assistance Line         Line       IRS.gov

        Correct Responses           35 (100%)           15 (100%)          4 (100%)    5 (100%)

        Service Not Provided          5 (13%)             0 (0%)           1 (20%)        —
        Average Wait Times
                                        62                  17                —           —
           (minutes)
       Source: Auditors’ experiences and responses to tax law questions.

While all taxpayer service options had advantages and limitations, IRS.gov provided the fastest
and best experience for the auditors. This filing season, auditors obtained correct information for
all their questions through their calls and research. This is an improvement over the results of
our 2007 Filing Season audit, when auditors obtained correct answers for only 50 (94 percent) of
53 questions asked.
However, the wait times on the Toll-Free Telephone Assistance Line and at the Taxpayer
Assistance Centers were considerably longer than the auditors experienced during the
2007 Filing Season. The average wait time for the Toll-Free Telephone Assistance Line was
17 minutes and the average wait time at the Taxpayer Assistance Centers was more than 1 hour.
Nevertheless, the Taxpayer Assistance Centers may be a preferred choice for taxpayers who have
complex tax issues that may be more easily addressed through face-to-face assistance.
Depending on their characteristics and circumstances, taxpayers can use the service option(s)
that best meets their needs and desires.


                                                                                                  Page 6
                          The Internal Revenue Service Provides Helpful and
                             Accurate Tax Law Assistance, but Taxpayers
                        Experience Lengthy Wait Times to Speak With Assistors



The IRS has limited resources and is working to further improve the service it provides taxpayers
while dealing with a complex tax code and its own unique challenges. It is providing more
self-assistance options on IRS.gov and is pushing more tax information to taxpayers through
social media, such as Twitter and YouTube.
The quickest way for taxpayers to learn how to contact the IRS is on IRS.gov. Located at the top
of the IRS.gov home page is a link to “Contact IRS.”

The Toll-Free Telephone Assistance Line generally provided positive experiences
Auditors called the Toll-Free Telephone Assistance Line and asked assistors 15 tax law
                                questions. They received correct responses to all 15 questions.
                                The assistors were professional and took an average of 8 minutes
                                to answer the tax law questions. The average time to complete
                                each call was 25 minutes.
                               Auditors waited an average of 17 minutes10 to speak with
                               assistors. The IRS reported the average wait time for all tax law
                               calls during the 2011 Filing Season was less than 10 minutes.
                               The average wait time to speak with an assistor during the
2007 Filing Season audit was only 2 minutes.
Taxpayers can locate the Toll-Free Telephone Assistance Line number using several sources,
including local telephone books, the 2010 U.S. Individual Income Tax Return (Form 1040)
Instructions, Your Federal Income Tax (IRS Publication 17), and IRS.gov. They can call the
Toll-Free Telephone Assistance Line between 7:00 a.m. and 10:00 p.m. local time. When
calling, taxpayers are given the option to hear menu choices in English or Spanish. In addition,
they may choose to listen to automated services or speak to a live assistor.
The IRS has improved the menu choices on the main toll-free telephone number since the
2007 Filing Season audit. Prior menus asked callers if they were calling about their account
information, which was confusing to taxpayers who may associate an account with a utility or
financial institution, but not with the IRS. Callers are now asked if they have questions about
their personal income taxes.
When calling the Toll-Free Telephone Assistance Line, callers generally have to negotiate only
two menus to reach an assistor to answer their questions. Callers hear (in English and Spanish):
        •    Welcome to the Internal Revenue Service.
        •    You can also visit us at www.IRS.gov.
        •    To find out about new tax legislation, including tax provisions regarding healthcare, press 7.


10
  Average wait times to speak with assistors measured an auditor’s wait time from the time the call was made to the
time the call reached the assistor.
                                                                                                           Page 7
                            The Internal Revenue Service Provides Helpful and
                               Accurate Tax Law Assistance, but Taxpayers
                          Experience Lengthy Wait Times to Speak With Assistors



           •   For questions about your refund, press 1.
           •   For questions about your personal income taxes, press 2.
           •   For business taxes, press 3.
           •   To repeat this menu, press 9.
           •   To repeat this menu, press or say 9.
           •   [If no response] We are unable to process your response; your call may be monitored or
               recorded for quality purposes. Please hold while your call is transferred; a representative,
               who will direct your call, will be with you shortly.

After pressing 2, callers hear:
           •   To order a blank form or publication, press 1.
           •   To get the mailing address for tax returns or payments, press 2.
           •   For general tax questions including filing a return or tax rules and regulations, press 3.
           •   To repeat this menu, press 9.
           •   To return to the previous menu, press 6.

After pressing 3, callers are advised to hold while their call is transferred to an assistor.
In addition, since the 2007 Filing Season, the IRS has added wait times and informational
announcements while callers wait to speak with an assistor. For example, recorded messages
informed auditors they could visit IRS.gov to access an interactive tax assistance tool if looking
for information about the Making Work Pay Credit or the Child Tax Credit. Another
announcement invited auditors to:
           Visit www.IRS.gov to get information to help meet your tax responsibilities including: payment
           options, check the status of your individual refunds, download forms, obtain answers to frequently
           asked questions, and access information regarding individual tax topics.

To answer tax law questions, assistors ask a series of questions, called probing questions, to
ensure they receive enough information to provide complete and accurate answers. At times, a
taxpayer may find the questions burdensome and time consuming, but tax laws often have many
exceptions and subtleties that require a thorough knowledge of the tax situation before an assistor
can provide an accurate answer. Assistors who responded to our questions used the required job
aids to ensure they had gathered all the necessary information to determine the correct answers.
According to the IRS Oversight Board’s 2010 Taxpayer Attitude Survey results, 76 percent of
taxpayers still believe that the telephone is the most important service the IRS can provide—over
the Internet or a walk-in office.11 Many services are available by telephone, such as live assistors
to provide answers to tax law questions and resolution of tax account problems; orders for forms,
instructions, and publications; and information through prerecorded messages covering various
tax topics.

11
     IRS Oversight Board 2010 Taxpayer Attitude Survey (January 2011).
                                                                                                       Page 8
                       The Internal Revenue Service Provides Helpful and
                          Accurate Tax Law Assistance, but Taxpayers
                     Experience Lengthy Wait Times to Speak With Assistors



Based on the auditors’ experiences, the Toll-Free Telephone Assistance Line generally provides
good service for taxpayers who need tax law questions answered quickly. Although the average
time to wait to speak to an assistor during this audit was 17 minutes, taxpayers can receive help
from assistors specifically trained to answer their simple or complex tax law questions without
leaving the comfort of their homes.

The TeleTax Line was viewed as antiquated and difficult to use
Auditors called the TeleTax Line to obtain answers to five tax law questions. Auditors were able
to find answers to their tax law questions using the TeleTax Line for four of the five questions.
One topic, dependents, was not available using the TeleTax Line. Answers to the other
4 questions were correct, but the average time to obtain the answers to the questions was
18 minutes. The maximum time was 42 minutes. In addition, one auditor was disconnected
twice.
When calling the TeleTax Line, callers hear (in English and Spanish):
       •   Welcome to the IRS TeleTax Information Line. To
           continue in English, press 1.
       •   For future reference, you may check the status of
           your refund, obtain tax topic information, and
           download forms and publications by visiting our web
           site at www.IRS.gov. You can also order forms and
           publications by calling 1-800-829-3676.
       •   To check the status of your refund, press 1.
       •   For recorded tax topic information, press 2.
       •   Enter the three digit number for the tax topic you want
           to hear now.
       •   If you need to hear the directory of the tax topics, press 123 now.

The average number of menus auditors used to research their questions was seven.
Auditors experienced difficulty when gathering the necessary information to call the TeleTax
Line, such as finding the TeleTax Line telephone number and locating the list of topics available
on it. In 1 instance, it took the auditor 23 minutes to determine the topic was not available on the
TeleTax Line.
While the TeleTax Line may not always answer taxpayers’ specific tax law questions, taxpayers
can call the TeleTax Line to hear prerecorded messages any time of the day or night. If
taxpayers are unable to obtain answers, the messages can provide them with additional insight
and direct them to appropriate research materials, such as publications and instructions.
However, based on our experience, we believe taxpayers would save time and frustration by
calling the 1040 line or accessing IRS.gov. Relatively few taxpayers use the TeleTax Line’s tax
law topics. Approximately 230,597 taxpayers called it for tax law assistance during the

                                                                                             Page 9
                          The Internal Revenue Service Provides Helpful and
                             Accurate Tax Law Assistance, but Taxpayers
                        Experience Lengthy Wait Times to Speak With Assistors



2011 Filing Season, down 17 percent from the 278,360 who used it during the 2010 Filing
Season.

Taxpayer Assistance Center assistors were professional and helpful, but the wait
times were burdensome
Auditors posed as taxpayers and made 40 visits to 26 Taxpayer Assistance Centers to ask tax law
questions and use the Facilitated Self-Assistance kiosks.12 The assistors were professional and,
like the Toll-Free Telephone Line assistors, asked questions to ensure they received enough
information to answer the auditors’ questions completely and accurately. All responses to the
auditors’ questions were accurate and complete.
In addition, auditors were able to easily identify the addresses and hours of operation for the
Taxpayer Assistance Centers by visiting IRS.gov. Taxpayers wishing to visit a local Taxpayer
Assistance Center can locate it by accessing IRS.gov and following links to the “Contact My
Local Office” webpage. Once there, taxpayers are advised they can locate a Taxpayer
Assistance Center in one of two ways:
     1) To view a list of all Taxpayer Assistance Centers in a State, taxpayers can click on a map
        or the State links provided by the web site.
     2) To identify the closest Taxpayer Assistance Center, taxpayers can enter their 5-digit ZIP
        Code into the Taxpayer Assistance Center Office Locator search engine.13
Taxpayers who do not have access to the Internet can find Taxpayer Assistance Center addresses
in local telephone books. They may also call the Toll-Free Telephone Assistance Line or the
Taxpayer Assistance Center’s local number to hear an automated message with this information.
Taxpayer Assistance Centers are generally open Monday through Friday from 8:30 a.m. to
4:30 p.m. local time.
After arriving at the Taxpayer Assistance Centers, auditors waited an average of 1 hour to
receive assistance
The wait times ranged from no wait time to 4 hours. Figure 3 provides a breakdown of the wait
times.




12
   The Facilitated Self-Assistance is an initiative to provide self-help assistance kiosks at Taxpayer Assistance
Centers. The kiosks can be used by taxpayers to access IRS.gov to file their tax returns, print tax forms and
publications, or conduct tax research. The IRS is piloting the Facilitated Self-Assistance kiosks at some Taxpayer
Assistance Centers, but they were available in only three of the Taxpayer Assistance Centers visited. Nevertheless,
in only one instance were auditors allowed to use the service. IRS management stated that employees were in the
process of learning the system at the time of our visits.
13
   A search engine attempts to index and locate desired information by searching for keywords that a user specifies.
                                                                                                            Page 10
                                        The Internal Revenue Service Provides Helpful and
                                           Accurate Tax Law Assistance, but Taxpayers
                                      Experience Lengthy Wait Times to Speak With Assistors



          Figure 3: Average Wait Time for Taxpayer Assistance Center Visits

                                                            14

                                     14
                                                 11
                                     12
                  Number of Visits




                                     10
                                                                              7
                                     8

                                     6

                                     4                                                  2          2
                                                                     1
                                     2

                                     0
                                          0-30    31-60      61-90   91-120   121-150       >150

                                                      Wait Time in Minutes

               Source: Auditor visits to Taxpayer Assistance Centers during the 2011 Filing Season.

The IRS Oversight Board’s 2010 Survey showed that 85 percent of respondents were not willing
to wait more than 30 minutes to speak to an assistor. The IRS reported that 76 percent of the
taxpayers who waited to speak to assistors, at the 225 Taxpayer Assistance Centers that track
wait time, waited fewer than 30 minutes for January through February 2011. However, the IRS
does not include the time a taxpayer waits before he or she is screened and given a number or
ticket to speak with an assistor.14
The average wait time for auditors during the 2007 Filing Season audit was only 38 minutes to
receive assistance and in only 4 of 18 visits (22 percent) did the wait time exceed 1 hour. Almost
one-third of the visits during this filing season audit resulted in wait times of more than 1 hour.15
In addition, on five occasions, auditors who visited three different Taxpayer Assistance Centers
were turned away and asked to return another day. Generally, this happened when auditors
visited the Taxpayer Assistance Centers in the afternoons and there were too many taxpayers
already waiting for assistance. For example:
     •   The auditor arrived at 3:00 p.m. and had waited in line 52 minutes, when the screener
         advised the auditor to return another day between the hours of 8:30 a.m. and 2:00 p.m.

14
   At most Taxpayer Assistance Centers, employees screen taxpayers for their issues and then provide them with a
ticket/number based on their issue.
15
   In 3 of the 40 visits, auditors did not have wait times because they were denied service prior to entering the
Taxpayer Assistance Centers and the visits are not included in the wait times.
                                                                                                          Page 11
                       The Internal Revenue Service Provides Helpful and
                          Accurate Tax Law Assistance, but Taxpayers
                     Experience Lengthy Wait Times to Speak With Assistors



       The screener cautioned that most days there are at least 20 people waiting when the door
       opens at 8:30 a.m. The Center usually stops giving out numbers by 2:00 p.m.
   •   The auditor arrived at 3:35 p.m. The security guard advised the auditor to return the next
       morning. There was a sign on the entrance door advising taxpayers that service was no
       longer available for the day; however, there were only four people waiting in the
       Taxpayer Assistance Center. The security guard stated the Center stopped accepting new
       arrivals at approximately 3:00 p.m.
   •   Two auditors arrived at 1:33 p.m. and 1:40 p.m., respectively. The screener advised
       taxpayers who were waiting with account issues or tax law questions that they would
       need to return the next day because they had stopped giving out numbers. Early the
       following morning at 8:43 a.m., 1 auditor returned to the same Center and waited about
       1 hour before the screener stated again that they had stopped accepting new arrivals.
       Taxpayers would have to return another day since the Center was at capacity and all
       assistors were “busy in the back.” The Center had stopped giving out numbers at
       approximately 9:40 a.m.
IRS management stated that although IRS policy is for Taxpayer Assistance Centers to remain
open during operating hours, there are occasions when customer demand outweighs the IRS’s
ability to provide same day service. The Taxpayer Assistance Centers are authorized to
discontinue taking customers prior to the official closing hour (generally 4:30 p.m.). However,
the expectation is that this only happens in late afternoon. Denying service during core business
hours is not an acceptable practice. IRS management has shared the specific instances
encountered by TIGTA auditors with the respective managers in an effort to ensure taxpayers are
not turned away inappropriately in the future.
Taxpayer Assistance Centers do not always allow taxpayers who meet certain criteria to
schedule appointments
IRS.gov states that an appointment is not necessary to visit a Taxpayer Assistance Center—
taxpayers can just walk in to resolve a tax problem or to obtain answers to questions about how
the tax law applies to their individual tax return, or if they are just more comfortable talking with
someone face-to-face. It continues with:
       If you prefer, you may call a local number to learn about available and alternate services, and to
       reschedule appointments with IRS personnel. If you have an ongoing, complex tax account
       problem or a special need, such as a disability, an appointment may be requested. All other
       issues will be handled without an appointment.

Auditors attempted to schedule appointments at 23 Centers. They called the local Taxpayer
Assistance Center telephone numbers provided on IRS.gov and left messages, stating they either
had a complex tax issue involving multiple tax years, were physically disabled, had twin babies
that made it difficult to wait, or lived 3 hours from the nearest Taxpayer Assistance Center.


                                                                                                  Page 12
                         The Internal Revenue Service Provides Helpful and
                            Accurate Tax Law Assistance, but Taxpayers
                       Experience Lengthy Wait Times to Speak With Assistors



Of the 23 calls to schedule appointments, only 6 (26 percent) Taxpayer Assistance Centers
would schedule appointments for the auditors.
     •   1 (4 percent) left a message, but the auditor missed the call.
     •   7 (30 percent) did not return the auditors’ calls.
     •   9 (39 percent) would not schedule appointments.
The managers who returned the calls and would not schedule appointments stated, for example:
     •   There was only one assistor working at that particular Taxpayer Assistance Center. IRS
         procedures state that Taxpayer Assistance Centers with only one assistor are not required
         to make appointments unless a taxpayer has a disability.
     •   The Taxpayer Assistance Center is a walk-in office and they do not schedule
         appointments or an appointment was not necessary.
     •   The auditor could call the toll-free telephone line or come to the Taxpayer Assistance
         Center without an appointment.
When taxpayers call a Taxpayer Assistance Center using the local telephone numbers, they hear
an automated message. The message explains that if he or she is calling to schedule an
appointment for help with an ongoing conflict or tax account problem, has special needs, or
needs to change an appointment, the caller should leave a name and telephone number and
someone from the IRS will call back within 2 business days.
In Fiscal Year 2011, as of April 2, 2011, the local Taxpayer Assistance Center numbers had
received more than 329,000 calls nationwide and 464 appointments were scheduled. The IRS
Oversight Board’s 2010 Survey showed that 65 percent of respondents likely to use walk-in
office locations to seek answers to tax questions would prefer to schedule an appointment. In
February 2011, the TIGTA reported that 35 percent of the United States population does not live
within 30 minutes of a Taxpayer Assistance Center.16 This represents a section of the population
that does not have convenient access to a Taxpayer Assistance Center and for whom scheduling
an appointment may reduce the burden of traveling long distances to obtain services.
New screening guidelines and procedures are not consistently applied across the Nation
Thirty-six (90 percent) of our 40 visits to Taxpayer Assistance Centers were made after new
guidelines for Taxpayer Assistance Centers were established in January 1, 2011. The new
guidelines required assistors to ask for a taxpayer’s identification and Social Security Number
for authentication purposes before they could provide assistance.


16
  The Taxpayer Assistance Centers Are Not Located to Effectively Serve the Maximum Number of Taxpayers
(Reference Number 2011-40-022, dated February 11, 2011).
                                                                                                    Page 13
                       The Internal Revenue Service Provides Helpful and
                          Accurate Tax Law Assistance, but Taxpayers
                     Experience Lengthy Wait Times to Speak With Assistors



For 32 of the 36 visits made after the new guidelines were in place, Taxpayer Assistance Center
employees asked for the auditors’ identifications and Social Security Numbers before providing
them service in only 7 (22 percent) of 32 instances. They did not follow procedures for the
remaining 25 visits. Either they did not ask for any identification or they asked for one or the
other, but not both the identification and the Social Security Number.
These are new procedures, and screeners and assistors do not always remember to follow them.
In addition, not all assistors were comfortable with the new requirement. Effective
April 4, 2011, the guidelines were revised to allow assistors to use their judgment when
determining the need to ask taxpayers for identification and Social Security Number for any
nonaccount-related service.
IRS.gov does not advise taxpayers that they may need identification for some services. The IRS
should ensure taxpayers know that they may be asked for identification prior to visiting a
Taxpayer Assistance Center.

IRS.gov contains valuable information, documents, and publications to assist
taxpayers
Auditors used IRS.gov to obtain answers to 5 tax law questions and manually prepared 10 tax
returns using only research tools available on IRS.gov.
Auditors were able to use IRS.gov to answer tax law questions
For all five tax law research sessions, the auditors easily located webpages and the relevant
information required to obtain the answers they needed to correctly prepare their tax returns. To
                                 find the answers, auditors generally used the easy-to-follow links
                                 or the IRS.gov search engine. It took the auditors an average of
                                 approximately 11 minutes to research each tax law question.
                                 Seventy percent of taxpayers in the IRS Oversight Board’s 2010
Survey believe that it is very important for the IRS to provide a web site to obtain assistance.
IRS.gov maintains many different sources of information to assist taxpayers in answering tax law
questions, including access to publications, tax topics, frequently asked questions, and
supplemental information for common tax issues. It also offers interactive tools that allow
taxpayers to not only research a topic but to get answers specific to their situations. Since the
2007 Filing Season review, the IRS has increased the number of available interactive tools,
including the Interactive Tax Assistant and web chat.




                                                                                           Page 14
                         The Internal Revenue Service Provides Helpful and
                            Accurate Tax Law Assistance, but Taxpayers
                       Experience Lengthy Wait Times to Speak With Assistors



The Interactive Tax Assistant provides quick, accurate, and consistent tax law answers
The Interactive Tax Assistant, launched in Fiscal Year 2010, provides taxpayers with web access
to some of the same tools and knowledge foundation that assistors use internally to answer tax
law questions. The Interactive Tax Assistant is part of the IRS’s efforts to provide taxpayers
with consistent information that quickly provides the answers needed and is available for access
24/7. On IRS.gov, the IRS explains:
       The Interactive Tax Assistant tool is a tax law resource that takes you through a series of questions and
       provides you with responses to tax law questions.
       •   Simply answer the questions and click the “Continue Button” to progress to the next question screen.
       •   You may need to collect information before the interview such as income amounts, taxes owed, and
           credits you are claiming.
       •   The tool includes a crossover feature that allows you to move from one tax topic to another without
           needing to enter the same answers multiple times. The “Review/Change Button” allows you to adjust
           responses to previously asked questions.
       •   When you reach the response screen, you have the option to print the entire interview and the final
           response.
       The tool does not require sensitive information such as Social Security Numbers.

The Interactive Tax Assistant covers a limited number of topics. Two of the tax law questions
the auditors researched were not offered on the Interactive Tax Assistant. However, the auditors
were able to easily and quickly obtain accurate answers to the other three questions using other
IRS.gov resources.
The IRS offers help using its web site
If taxpayers have problems using IRS.gov, they can contact the IRS.gov Help Desk. From
IRS.gov:
       Think of our Help Desk as a first aid station for
       technical questions about the IRS web site. If
       you need help getting around the site or
       assistance retrieving files and forms, we have
       folks who will give you a hand.
       Caution: DO NOT submit tax related questions
       below. If you have a tax question that was not
       answered by checking Tax Topics, Frequently
       Asked Questions, or Tax Trails, please call our
       toll-free tax assistance line at 1-800-829-1040 for
       individual tax questions or 1-800-829-4933 for
       business tax questions. We will not respond to
       tax or personal related inquiries submitted to this
       Help Desk.

Taxpayers can submit questions, in both English and Spanish, and receive responses that help
them in obtaining assistance with their web site questions and issues. The chat room is open

                                                                                                           Page 15
                              The Internal Revenue Service Provides Helpful and
                                 Accurate Tax Law Assistance, but Taxpayers
                            Experience Lengthy Wait Times to Speak With Assistors



from 8:00 a.m. to 12:00 a.m. Eastern Standard Time. Although taxpayers are cautioned to not
submit tax-related questions, auditors used the chat service to ask a Help Desk representative a
tax law question. The representative provided us with a link to an excerpt from a publication
explaining the requirements for filing head of household.
The IRS is beginning to use social media to communicate with taxpayers
The IRS uses new social media platforms and tools to share the latest information on tax
changes, initiatives, products, and services. The IRS uses six different types of social media
outlets:
       •   YouTube. The IRS publishes informational videos in English, multilingual, and
           American Sign Language on various tax administration topics beneficial to taxpayers.
       •   Twitter. The IRS “tweets”17 news and guidance via updates that provide links to tax
           information for individuals (IRSnews), tax professionals (IRStaxpros), and
           Spanish-speaking taxpayers (IRSenEspanol).
       •   Smartphone App. “IRS2Go” is the most recent use
           of social media by the IRS. This IRS-developed app
           first offered in January 2011 is the first smartphone
           app that allows taxpayers to check on the status of
           their tax refund and obtain helpful tax information.
           The IRS2Go telephone app gives people a
           convenient way of checking on their Federal refund.
           It also gives people a quick way to obtain
           easy-to-understand tax tips.
       •   Podcasts. The IRS creates audio files for use in podcasts. These short audio recordings
           provide useful information on one tax related topic. The audio files and their transcripts
           can be found in the Multimedia Center on IRS.gov. These files are also available as
           podcasts on iTunes.
       •   Widgets. Widgets are tools that can be placed on web sites, blogs, or social media
           networks to direct others to IRS.gov for information. The IRS has developed a variety of
           widgets that feature the latest tax initiatives and programs.
Social media continues to evolve at a rapid pace. Use of these new communication vehicles will
allow the IRS to reach additional segments of taxpayers and stakeholders. However, the very
features that make social media such a valuable tool also presents major challenges. These
challenges include the protection of taxpayer privacy and the security of sensitive individual
information.


17
     A tweet is a post or status update on Twitter.
                                                                                              Page 16
                      The Internal Revenue Service Provides Helpful and
                         Accurate Tax Law Assistance, but Taxpayers
                    Experience Lengthy Wait Times to Speak With Assistors



The IRS reported that it does not have a precise figure on the cost to develop its social media
presence. Plans are to continue to expand the use of social media. The Servicewide Governance
Council for New Media was created to help chart the future course of social media and provide a
means of ensuring that new technology tools and social media platforms are used in a
coordinated and integrated environment that ensures the most efficient return on funds spent.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Reinforce existing controls to ensure Taxpayer Assistance Center
managers appropriately schedule appointments when requested by taxpayers because of an
ongoing, complex tax account problem or a special need, such as a disability.
       Management’s Response: IRS Management agreed with this recommendation and
       will issue additional instructions to Taxpayer Assistance Center managers related to
       scheduling appointments.
Recommendation 2: Add information to IRS.gov and Taxpayer Assistance Centers’
telephone recordings to inform taxpayers they may be asked to provide identification and Social
Security Numbers to receive assistance.
       Management’s Response: IRS Management agreed with this recommendation.
       They will update IRS.gov and Taxpayer Assistance Centers’ telephone recordings to
       include a statement advising taxpayers they may be asked to provide valid photo
       identification and a Taxpayer Identification Number, such as a Social Security Number,
       to receive services.

Experiences Were Positive When Tax Return Preparation Assistance
Was Used
Auditors were able to prepare 30 (100 percent) correct tax returns using the forms on IRS.gov
and the IRS’s Free File Program. In addition, tests of 20 contact recordings of tax return
preparation at Taxpayer Assistance Centers nationwide showed that assistors prepared all
20 (100 percent) tax returns correctly.
For the IRS, tax preparation assistance can be costly and requires significant resources. The IRS
encourages taxpayers to use the Volunteer and Free File Programs for tax preparation assistance
so it can use its limited Taxpayer Assistance Center resources for other customer service needs.
The IRS estimates that it costs $28.73 to assist a taxpayer who visits a Taxpayer Assistance
Center. In contrast, it costs only $12.01 when a taxpayer uses a Volunteer Program to prepare a
tax return.


                                                                                         Page 17
                        The Internal Revenue Service Provides Helpful and
                           Accurate Tax Law Assistance, but Taxpayers
                      Experience Lengthy Wait Times to Speak With Assistors



The Free File Program provides two methods to electronically file tax returns
                                The IRS offers taxpayers two online options with which to prepare
                                and e-file their tax returns—IRS Free File Program Software and
                                IRS Free File Fillable Forms. Auditors prepared 20 tax returns
                                using the Free File Program on IRS.gov, which included 15 using
IRS Free File Program Software providers and 5 using IRS Free File Fillable Forms. All tax
returns were prepared correctly using the resources provided through IRS.gov. Auditors found
the links to the Free File Program easily on the IRS.gov home page.
Figure 4 shows an excerpt from the Free File Program webpage, explaining the two ways
taxpayers can use the Free File Program to prepare tax returns.
                Figure 4: Excerpt from the Free File Program Webpage




 Source: Free File Program webpage on IRS.gov.

The Free File tax software proved quick and easy to use and provided accurate tax returns
Once linked to the Free File Program web site, auditors were presented with a list of 17 service
providers and the criteria users must meet for each service provider’s software. The IRS
cautions taxpayers with the following:
       •   Free File companies have their own eligibility criteria, but none offer Free File to taxpayers with an
           adjusted gross income of more than $58,000.
       •   Other eligibility criteria may include your: age, state, eligibility for the Earned Income Tax Credit, and
           military status.




                                                                                                              Page 18
                        The Internal Revenue Service Provides Helpful and
                           Accurate Tax Law Assistance, but Taxpayers
                      Experience Lengthy Wait Times to Speak With Assistors


       •   Check the company's web site for details because the companies' offers may differ. For example, some
           companies charge a fee for State tax returns and some may not support a particular form you need to
           file.
       •   Remember to begin your Free File return on IRS.gov or you may be charged a fee or asked to buy
           additional products and services.
       •   If, after browsing the list of companies, you need help, go to Help Me Find a Free File Company.

Auditors prepared 15 tax returns using 3 Free File Program software providers. On average, it
took auditors fewer than 30 minutes to accurately prepare all 15 tax returns. Auditors found the
software easy to use, and the software allowed them to prepare an accurate tax return. The
software packages prescreened users to ensure they qualified to use the service and provided
definitions and alerts for unusual circumstances to assist with accurately preparing the returns.
In addition, the software packages identified potentially relevant topics not included in the tax
return scenarios and asked sufficient questions to identify all issues.
The Free File Fillable Forms was easy to use but required taxpayers to be comfortable
researching tax law
Auditors accurately prepared one tax return for each of the five tax return scenarios using the
Free File Fillable Forms. Although Free File Fillable Forms does not provide taxpayers with tax
law assistance, it does provide a calculation mechanism and allows taxpayers to easily file their
tax returns electronically. When accessing the Free File Fillable Forms, the webpage provides
the following:
       Access Free File Fillable Forms Here
       New Users Only: Start your 2010 taxes using Free File Fillable Forms.
       Returning Users: If you have already started your 2010 Free File Fillable Forms and want to
       continue working, go back to the e-mail you got with your new account confirmation. Click on the
       link in the e-mail, or copy and paste the URL [Uniform Resource Locator] into your browser, to
       pull up your partially completed return. This is the only way you can get back to your return.
       Note: If your 2010 Adjusted Gross Income is $58,000 or less you may want to browse the list of
       participating Free File companies to prepare and file your Federal return. The tax software from
       the list of Free File companies is simple to use and guides you through the tax preparation and
       e-file process. State tax return preparation and e-file is also available. Some companies may
       charge a fee for State tax returns. Let Free File do the hard work for you with brand-name
       software.

Users are prompted that they are leaving IRS.gov and entering a privately owned web site
created, operated, and maintained by a private business. Users are required to create a password
and establish an account. The application provides a calculation mechanism, but the user must
be comfortable with researching applicable tax laws to determine the correct amount of tax and
enter it on the form.
Overall, auditors thought the Free File Fillable Forms was easy to use and provided a viable
alternative to taxpayers who could not use the Free File Tax Software but wanted the expediency
of e-filing.

                                                                                                         Page 19
                         The Internal Revenue Service Provides Helpful and
                            Accurate Tax Law Assistance, but Taxpayers
                       Experience Lengthy Wait Times to Speak With Assistors



Taxpayers who prepare tax returns manually have many sources of helpful
information but no longer receive forms and instructions in the mail
Auditors were able to prepare 10 tax returns using online forms available on IRS.gov (5 tax
returns using paper and pencil and 5 tax returns using online versions of the paper forms
available on IRS.gov). For all 10 (100 percent) tax returns, auditors used publications and
instructions available on IRS.gov.
Beginning with the 2011 Filing Season, the IRS no longer automatically mails tax packages to
taxpayers who prepare their own tax returns and submit them on paper. Only 8 percent of
individuals who filed in Calendar Year 2009 received tax packages in the mail. More than
80 percent of individual taxpayers use a preparer or tax preparation software to prepare their tax
returns and, therefore, have no need for a Form 1040 tax package.
Taxpayers can download forms and publications from IRS.gov. Using IRS.gov, taxpayers can
either download and print the forms prior to completion or complete the tax return online and
then print the completed form. Taxpayers can also visit a Taxpayer Assistance Center, each of
which maintains the most commonly used forms and publications.
However, forms and publications were not always available at the 26 Taxpayer Assistance
                                   Centers auditors visited from January through February 2011.
                                   Twenty-five to 40 percent of the shelves holding the forms and
                                   publications were empty. Among the most notable forms and
                                   publications missing were U.S. Individual Income Tax Return
                                   (Forms 1040 and 1040A) and the related instructions, Your
                                   Federal Income Tax (For Individuals) (Publication 17), and
                                   many Spanish forms and publications. Management stated the
                                   IRS had to delay the printing of many forms because of the late
                                   passage of legislation.18 This included Forms 1040 and 1040A
and the related instructions. Taxpayers were advised by either Center employees or signs posted
near the areas where forms and publications were stored to use IRS.gov or the toll-free telephone
line as alternatives to obtain forms and publications.
Taxpayers can also call the Toll-Free Telephone Assistance Line to order any form or
publication, including Spanish, large-print, and audio versions or call 1-800-TAX-FORM to
order forms and publications. Auditors made five calls to the tax forms number and ordered tax
forms, publications, and instructions. The telephone number was easy to locate on IRS.gov. The
average time it took to call and order documents was approximately 11 minutes for the 5 calls.
The average time it took to receive the documents was approximately 9 days.



18
  On December 17, 2010, the President signed the Tax Relief, Unemployment Insurance Reauthorization, and Job
Creation Act of 2010, Pub. L. No. 111-312, 124 Stat. 3296.
                                                                                                     Page 20
                          The Internal Revenue Service Provides Helpful and
                             Accurate Tax Law Assistance, but Taxpayers
                        Experience Lengthy Wait Times to Speak With Assistors



Auditors generally used IRS.gov to download the document they needed to complete their 10 tax
returns, and they primarily used the Form 1040 instructions to guide them through preparing the
Form 1040. On average, it took auditors from 2.25 to 2.75 hours to complete each tax return.
Auditors commented that the entire process took longer than they expected because they had to
research numerous tax laws before completing the tax returns. No matter the method used to
obtain the paper forms and publications, taxpayers must be comfortable researching tax laws and
performing their own calculations.
The IRS instructions and publications simplified somewhat difficult tax laws and made them
easy to understand. The instructions provide guidance for each line item on the Forms 1040 as
well as tax tables, flowcharts, and schedules, to assist taxpayers in computing credits or expenses
they may be entitled to claim. For more complex issues, the Form 1040 instructions direct
taxpayers to the specific IRS publications addressing the issues. Overall, taxpayers who do not
wish to use other IRS customer service options or pay a preparer to prepare tax returns may find
the IRS provides many publications and instructions to assist in meeting their tax obligations.

Taxpayers receive quality tax return preparation assistance at Taxpayer
Assistance Centers
Auditors did not have tax returns prepared at the Taxpayer Assistance Centers, but tests of
20 contact recordings of tax return preparation at Centers nationwide showed that assistors
prepared all 20 (100 percent) tax returns correctly.19
The IRS offers tax preparation at the Taxpayer Assistance Centers for taxpayers who meet
certain criteria. Foremost, the taxpayer, spouse, and dependents must be U.S. Citizens, Resident
Aliens, or have a valid Individual Taxpayer Identification Number. In addition, tax returns will
only be prepared for taxpayers with a total income of $49,000 or less and do not involve complex
tax issues.
For the tax return preparations tested, assistors used the job aids and asked appropriate probing
questions that uncovered additional issues the taxpayers had not mentioned. Assistors took
approximately 40 minutes to prepare the tax returns and were professional and courteous.




19
   Although we are defining the mock returns as correct, we recognize that the final determination of the accuracy of
a return is subject to IRS and court interpretation.
                                                                                                            Page 21
                           The Internal Revenue Service Provides Helpful and
                              Accurate Tax Law Assistance, but Taxpayers
                         Experience Lengthy Wait Times to Speak With Assistors



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine the quality of customer service the IRS provides to
taxpayers who seek assistance when filing their tax returns. To accomplish our objective, we:
I.       Visited 26 Taxpayer Assistance Centers to evaluate taxpayers’ experiences when visiting
         Centers.
         A. Selected a judgmental sample of 26 Taxpayer Assistance Centers out of the
            401 Taxpayer Assistance Centers. We judgmentally selected 10 large cities and
            visited at least 2 Taxpayer Assistance Centers in the selected city for a total of 26.
            Ten of the Taxpayer Assistance Centers selected were scheduled to have Facilitated
            Self-Assistance1 services. We selected Taxpayer Assistance Centers located in large
            cities that also had multiple Centers in close proximity to each other. We used
            judgmental sampling because we did not plan to project any statistics over the entire
            population of Taxpayer Assistance Centers, and statistical sampling would have
            required more audit resources than were available.
         B. Asked assistors at the 26 Taxpayer Assistance Centers a total of 35 tax law questions
            and determined if we could use the answers to prepare accurate tax returns.
II.      Determined the quality of customer service provided on the Toll-Free Telephone
         Assistance Line. We asked assistors 15 tax law questions (5 calls for 5 tax law questions,
         3 times per week, every 3 weeks, at various times) and determined if we could use the
         answers to prepare accurate tax returns.
III.     Determined the quality of customer service provided when scheduling an appointment at
         Taxpayer Assistance Centers. We attempted to schedule appointments at 23 Centers.
         We called the local Taxpayer Assistance Center telephone numbers provided on IRS.gov
         and left messages, stating we had a complex tax issue involving multiple tax years, were
         physically disabled, had twin babies that made it difficult to wait, or lived 3 hours from
         the nearest Taxpayer Assistance Center.
IV.      Determined the quality of customer service provided by the TeleTax Telephone Line
         using five tax law questions. We listened to four prerecorded messages to determine if



1
 The Facilitated Self Assistance is an initiative to provide self-help assistance kiosks at Taxpayer Assistance
Centers. The kiosks can be used by taxpayers to access IRS.gov to file their tax returns, print tax forms and
publications, or conduct tax research.
                                                                                                             Page 22
                           The Internal Revenue Service Provides Helpful and
                              Accurate Tax Law Assistance, but Taxpayers
                         Experience Lengthy Wait Times to Speak With Assistors



         information regarding the tax law question topics was available and could be used to
         assist in the preparation of accurate tax returns.
V.       Determined the quality of customer service provided by researching printed tax forms,
         instructions, and publications on IRS.gov. Three auditors each researched five tax law
         questions and determined if we could use the answers to prepare accurate tax returns. We
         used judgmental sampling because we did not plan to project any statistics over the entire
         population of printed tax forms, instructions, and publications on IRS.gov, and statistical
         sampling would have required more audit resources than were available.
VI.      Identified the different IRS social media tools and platforms and the different ways the
         IRS is using the media.
VII.     Evaluated taxpayers’ experiences when using the Free File Program to have 20 tax
         returns prepared—15 using 3 Free File Program software providers and 5 using Free File
         Fillable Forms. We judgmentally selected 3 of the 17 Free File Program tax return
         preparation software providers based on the qualifications taxpayers would need to meet
         to use the software. We used judgmental sampling because we did not plan to project
         any statistics over the entire population of Free Form Programs providers, and statistical
         sampling would have required more audit resources than were available.
VIII.    Determined the quality of self-help options available on IRS.gov and if research of
         available information provided correct answers to tax law questions. We prepared 10 tax
         returns using information available on IRS.gov—5 using paper and pencil and 5 using
         online versions of the paper forms available on IRS.gov.
IX.      Reviewed 20 contact recordings2 of tax return preparation at the Taxpayer Assistance
         Centers between January 26 and February 1, 2011, to evaluate the preparation of tax
         returns by assistors. We judgmentally selected these dates since they were among the
         most recent contact recordings available at the time of our review. We selected the first
         20 of the 30 contact recordings in which the assistor prepared a U.S. Individual Income
         Tax Return (Form 1040) and the audio and video quality of the recording allowed us to
         assess the quality of tax return preparation. The contact recordings were selected from
         the IRS’s internal, statistically valid Quality Review sample of recordings used to
         measure customer satisfaction and employee performance. We used judgmental
         sampling because we did not plan to project any statistics over the entire population of
         contact recordings, and statistical sampling would have required more audit resources
         than were available.



2
  Contact Recordings captures the audio portion and screen activity during assistor/customer interactions for quality
review. Quality reviewers listen to a statistical sample of recordings, the results of which are used to measure
customer satisfaction and employee performance.
                                                                                                            Page 23
                      The Internal Revenue Service Provides Helpful and
                         Accurate Tax Law Assistance, but Taxpayers
                    Experience Lengthy Wait Times to Speak With Assistors



Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the internal
controls applicable to this review, within the context of the audit objective, include those that
ensure quality customer service and not internal controls applicable to preventing fraud, waste,
and abuse. We evaluated these controls by reviewing the services the IRS provides to taxpayers
who seek assistance when filing their tax returns and evaluating the quality of customer service
received while posing as taxpayers.




                                                                                          Page 24
                     The Internal Revenue Service Provides Helpful and
                        Accurate Tax Law Assistance, but Taxpayers
                   Experience Lengthy Wait Times to Speak With Assistors



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Randee Cook, Director
Wilma Figueroa, Audit Manager
Geraldine Vaughn, Lead Auditor
Tanya Adams, Senior Auditor
Kenneth Carlson, Senior Auditor
Pamela DeSimone, Senior Auditor
Jerry Douglas, Senior Auditor
Roberta Fuller, Senior Auditor
Tracy Harper, Senior Auditor
Jerome Antoine, Auditor
Steven Elix, Auditor




                                                                                    Page 25
                     The Internal Revenue Service Provides Helpful and
                        Accurate Tax Law Assistance, but Taxpayers
                   Experience Lengthy Wait Times to Speak With Assistors



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner of Operations, Wage and Investment Division SE:W
Deputy Commissioner of Services, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Customer Assistance, Relationships and Education, Wage and Investment Division
SE:W:CAR
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Field Assistance, Wage and Investment Division SE:W:CAR:FA
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Director, Stakeholder Partnership, Education, and Communications, Wage and Investment
Division SE:W:CAR:SPEC
Director, Communications and Liaison SE:W:C
Director, Office of Communications CL:C
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                    Page 26
             The Internal Revenue Service Provides Helpful and
                Accurate Tax Law Assistance, but Taxpayers
           Experience Lengthy Wait Times to Speak With Assistors



                                                                                  Appendix IV

     Taxpayer Assistance Centers Visited
        During the 2011 Filing Season




Source: Auditors’ visits to the Taxpayer Assistance Centers during the 2011 Filing Season.




                                                                                             Page 27
       The Internal Revenue Service Provides Helpful and
          Accurate Tax Law Assistance, but Taxpayers
     Experience Lengthy Wait Times to Speak With Assistors



                                                  Appendix V

Management’s Response to the Draft Report




                                                        Page 28
  The Internal Revenue Service Provides Helpful and
     Accurate Tax Law Assistance, but Taxpayers
Experience Lengthy Wait Times to Speak With Assistors




                                                   Page 29
  The Internal Revenue Service Provides Helpful and
     Accurate Tax Law Assistance, but Taxpayers
Experience Lengthy Wait Times to Speak With Assistors




                                                   Page 30
